No.
IN THE SUPREME COURT OF THE UNITED STATES
John H. Schoppe — PETITIONER
VS.
State of Utah, et al — RESPONDENT(S)
Requested Deletions to Documents and Copies of Corrected Pages served by mail on opposing
parties/counsels.
The petitioner has made the requested deletions, (“redact or remove”) of information
and/or numbers) in the petition and/or appendix that could be used to compromise petitioner’s
financial security. Redacted copy enclosed.
PROOF OF SERVICE
I, John H. Schoppe, do swear or declare that on this date, March 31,2021, as required by
Supreme Court Rule 291 have served the enclosed redacted pages on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the pages redacted in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Social Security Administration
Office of Hearings Operations
Room 3102
125 South State Street
Salt Lake City, Utah 84138-1107
Department of Workforce Services
Appeals Unit
Box 4544
Salt Lake City, UT 84145-0244
Internal Revenue Service
ACW SUPPORT - STOP 813G
P. O. Box 145566
Cincinnati, OH 45250-5566

^ECffvio
APR • 6 2021
sS&iijurj&Mfp

Utah State Tax Commission
DTS 210 N 1950 W
Salt Lake City, UT 84134
1 | Page

I declare under penalty of pequry that the foregoing is true and correct.
Executed on March 31,2021.
Dated: March 31,2021

John H. Schoppe, Petitioner

2 | Page

